                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                  \           OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

1    Case Number: A02060036                                                       Page 1of 1


          A Principal Investigator1 told his Program Officer that a post-doctoral researcher
          (the subject),2 a visiting scientist from another country supported by NSF funds,3
          had fabricated data. The PI said another post-doctoral researcher (post-doc) was
          unable to duplicate the subject's research. The PI reported the subject abruptly left
          the PI'S laboratory and returned to his country.

          Per NSF policy, the Program Manager referred the allegation to us. The PI told us
          the subject took his laboratory notebooks and (probably) his data with him when he
          returned to his country, so he had no evidence of fabrication except that the post-doc
          was unable to reproduce the subject's experiment.

          We verified with the US Immigration and Naturalization Service that the subject
          had returned to his home country. Without evidence, there is no reason to pursue
          this matter. Accordingly, this case is closed. We asked the University to inform us
          if the subject returns or if it obtains evidence of alleged fabrication.




              1   (footnote redacted)
              2   (footnote redacted)

                                Agent         Attorney            Supervisor                A1GI

      Sign / date
I'
                                                                                   OIG Form 2 (2102)
